CERTIFICATE OF COMPLIANCE
Alan Headman,
vs.
Royal I. Hansen, et al.
I hereby certify that this document complies with the word limits required under Supreme
Court Rule 33(h) and that the petition for writ of certiorari contains 3,070 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33(l)(d).

I declare under penalty of perjury that the foregoing is true and correct.

—

November 3, 2020
Date

Sign here
Name

/s/Alan Headman
Alan Headman
Petitioner Pro Se

